No. -

- --

-

IN THE
SUPREME COURT OF THE UNITED STATES

LARRY HARRIS AND MICHAEL STEWARD,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I, Peggy Sasso, do swear or declare that on this date, February 26, 2021, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPER/Sand PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United Stat es mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of t hose served are as follows:
Solicitor General of the United St ates
Room 5616
Department of Justice
950 Pennsylvania Avenue , N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
I declare under penalty of perjury that th

true and correct.

